<html>
<title> - UNACCOMPANIED ALIEN CHILDREN: PRESSING THE ADMINISTRATION FOR A STRATEGY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]





 
                     UNACCOMPANIED ALIEN CHILDREN: PRESSING 
                        THE ADMINISTRATION FOR A STRATEGY
=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 18, 2014

                               __________

                           Serial No. 113-237

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        
        
        
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/

                                 ______
                                 
                                 
                       U.S. GOVERNMENT PUBLISHING OFFICE
91-454PDF                    WASHINGTON : 2015                       
  _____________________________________________________________________________________                                
 For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center,
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a3c4d3cce3c0d6d0d7cbc6cfd38dc0ccce8d">[email&#160;protected]</a>  
                                
                                
                                
                                
                                
                                
                                 
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
JOE WILSON, South Carolina           GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ALBIO SIRES, New Jersey
TED POE, Texas                       GERALD E. CONNOLLY, Virginia
MATT SALMON, Arizona                 THEODORE E. DEUTCH, Florida
TOM MARINO, Pennsylvania             BRIAN HIGGINS, New York
JEFF DUNCAN, South Carolina          KAREN BASS, California
ADAM KINZINGER, Illinois             WILLIAM KEATING, Massachusetts
MO BROOKS, Alabama                   DAVID CICILLINE, Rhode Island
TOM COTTON, Arkansas                 ALAN GRAYSON, Florida
PAUL COOK, California                JUAN VARGAS, California
GEORGE HOLDING, North Carolina       BRADLEY S. SCHNEIDER, Illinois
RANDY K. WEBER SR., Texas            JOSEPH P. KENNEDY III, 
SCOTT PERRY, Pennsylvania                Massachusetts
STEVE STOCKMAN, Texas                AMI BERA, California
RON DeSANTIS, Florida<greek-l>       ALAN S. LOWENTHAL, California
TREY RADEL, Florida--resigned 1/27/  GRACE MENG, New York
    14 deg.                          LOIS FRANKEL, Florida
DOUG COLLINS, Georgia                TULSI GABBARD, Hawaii
MARK MEADOWS, North Carolina         JOAQUIN CASTRO, Texas
TED S. YOHO, Florida<greek-l>
LUKE MESSER, Indiana--resigned 5/
    20/14 noon deg.
SEAN DUFFY, Wisconsin<greek-l>--
    added 5/29/14 noon deg.
CURT CLAWSON, Florida<greek-l>--
    added 7/9/14 noon deg.

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
                                 ------                                

                 Subcommittee on the Western Hemisphere

                     MATT SALMON, Arizona, Chairman
CHRISTOPHER H. SMITH, New Jersey     ALBIO SIRES, New Jersey
ILEANA ROS-LEHTINEN, Florida         GREGORY W. MEEKS, New York
MICHAEL T. McCAUL, Texas             ENI F.H. FALEOMAVAEGA, American 
JEFF DUNCAN, South Carolina              Samoa
RON DeSANTIS, Florida<greek-l>       THEODORE E. DEUTCH, Florida
TREY RADEL, Florida--resigned 1/27/  ALAN GRAYSON, Florida
    14 deg.
SEAN DUFFY, Wisconsin<greek-l>--5/
    30/14 noon deg.
                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Roberta S. Jacobson, Assistant Secretary, Bureau of 
  Western Hemisphere Affairs, U.S. Department of State...........     5
Ms. Elizabeth Hogan, Acting Assistant Administrator, Bureau for 
  Latin America and the Caribbean, U.S. Agency for International 
  Development....................................................    13
Mr. Robert N. Kaplan, President and Chief Executive Officer, 
  Inter-American Foundation......................................    23
Ms. Catherine Wiesner, Deputy Assistant Secretary, Bureau of 
  Population, Refugees, and Migration, U.S. Department of State..    31

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Roberta S. Jacobson: Prepared statement............     8
Ms. Elizabeth Hogan: Prepared statement..........................    15
Mr. Robert N. Kaplan: Prepared statement.........................    25

                                APPENDIX

Hearing notice...................................................    52
Hearing minutes..................................................    53


                     UNACCOMPANIED ALIEN CHILDREN:



                    PRESSING THE ADMINISTRATION FOR



                               A STRATEGY

                              ----------                              


                       TUESDAY, NOVEMBER 18, 2014

                       House of Representatives,

                Subcommittee on the Western Hemisphere,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittee met, pursuant to notice, at 2:04 p.m., in 
room 2172, Rayburn House Office Building, Hon. Matt Salmon 
(chairman of the subcommittee) presiding.
    Mr. Salmon. A quorum being present, the subcommittee will 
come to order.
    I will start by recognizing myself and the ranking member 
to present our opening statements.
    Without objection, the members of the subcommittee can 
submit their opening remarks for the record. And now I yield 
myself as much time as I may consume to present my opening 
statement.
    Good afternoon and welcome to this, the second hearing that 
I have convened on the humanitarian crisis that resulted from 
thousands of unaccompanied minors showing up at our southern 
border. I have been engaged on this issue from the beginning, 
not only as the chairman of this subcommittee, but also as a 
member of the Speaker's working group on the unaccompanied 
alien child crisis. I traveled with several of my colleagues to 
the region and saw first-hand the insecurity and the poverty 
that plagues the region.
    While the administration cited drops in the total number of 
children travelling north since our first hearing on the topic 
back in June, the fact is that the conditions in El Salvador, 
Honduras, and Guatemala continue to be very grave. I convened 
this second hearing because my colleagues and I are mindful 
that the high levels of gang violence and the lack of 
opportunity right here in our hemisphere not only affects the 
lives of millions in Central America, but affects the United 
States, too, as we have seen. Indeed, the pursuit of peace and 
prosperity through the Western Hemisphere should be a key 
national security objective of the United States.
    As Ronald Reagan said back in 1984, ``Central America is a 
region of great importance to the United States, and it is so 
close. San Salvador is closer to Houston, Texas, than Houston 
is to Washington, DC.''
    I have consistently been supportive of U.S. efforts through 
CARSI to assist the region to build capacity to strengthen 
their respective police forces so they can better confront the 
high levels of criminality brought on by gangs and drug-
trafficking organizations. Between 2005 and 2012, there was a 
340 percent increase in murders of women and children in 
Honduras. While El Salvador maintains the world's highest rate 
of homicides against women and girls, Guatemala ranks third. 
There is widespread mistrust of law enforcement and impunity 
rates as high as 95 percent.
    In addition to the need for stepping up capacity building 
for law enforcement, all three of these northern triangle 
countries lack stable institutions and are plagued by 
corruption, so U.S. efforts to improve governance and 
democratic values are imperative. The question remains, 
however--and this is why I have convened this second hearing--
in this time of tight budgets, are we evaluating each and every 
individual program that we fund, applying metrics and 
determining what works and what doesn't work?
    I had asked during the last hearing for USAID to provide me 
with specific program-by-program metrics and, to this date, 
have yet to receive that information in its entirety. I am 
aware of the Vanderbilt study, a $3.5 million study to evaluate 
some of USAID's programs in the region. Unfortunately, the 
study does not provide us with project-by-project evaluations 
and cost-benefit analysis, and that may not be available right 
now.
    I have said this before: The U.S. taxpayer is very generous 
and wants to help the people of El Salvador, Guatemala, and 
Honduras find a path to peace and prosperity in their 
respective countries. However, they also demand that we spend 
their hard-earned taxpayer money and achieve measurable 
results. As a result, we must acknowledge that previous 
programs in Central America have failed. Despite U.S. 
investments through CARSI, these countries continue to fail, 
and these failures ultimately contributed to the UAC crisis 
along our border.
    It is our responsibility and yours to ensure that going 
forward, that we have very serious buy-in and political will 
from each of these three countries. And every agency involved 
in administering programs needs to be accountable for the 
effectiveness of each specific program. The goal is to help 
empower these countries to improve governance and build 
prosperity so that their citizens can prosper there.
    Unfortunately, the Obama administration continues to 
incentivize the mass exodus of citizens from those countries by 
changing immigration policy by decree. On Friday, Vice 
President Biden announced an in-country refugee processing 
program as part of a strategy to deal with the unaccompanied 
minor crisis. Now, at first glance, the idea is a very good 
one. We have all talked about the treacherous journey these 
children must make to get to our border, so offering those 
people who might qualify for refugee status the opportunity to 
apply in their countries would be a good way to dissuade them 
from otherwise travelling up our southern border.
    Upon closer inspection, however, it appears that this 
program is yet another example of President Obama's flouting of 
immigration law. This newly announced program allows family 
members present in the United States under varying statuses, 
including deferred action, to petition for children and spouses 
in Central America to be interviewed for refugee status. If 
they are ineligible, the newly announced program allows for 
humanitarian paroles on a case-by-case basis.
    It is very important that the State Department's Bureau of 
Population, Refugees and Migration provided a witness to answer 
to the many questions my colleagues and I have about this newly 
announced in-country processing, particularly to understand the 
criteria being applied to both refugee and parole eligibility. 
The answer to problems plaguing the region is not to further 
incentivize citizens of El Salvador, Guatemala, and Honduras to 
leave. Rather, we should double down on serious efforts to 
empower people of the region to achieve lasting peace and 
prosperity in their country.
    Using this crisis to attempt to create favor for sheer 
political gain is wrong. Sadly, I believe that that might be 
what the President is doing.
    I am looking forward to hearing from each of our witnesses 
about what their specific agency or bureau is doing to address 
the crisis with the seriousness it deserves.
    Assistant Secretary Jacobson, thank you for being with us 
today.
    Ms. Hogan, Mr. Kaplan and Ms. Wiesner, I am pleased you are 
here as well. I look forward to hearing how assistance programs 
can be refocused on income generation and economic development 
to help provide empowerment and opportunity to the citizens of 
Central America. And anyway, I would like to offer an 
opportunity for opening comments by my colleagues as well.
    Representative Duncan.
    Mr. Duncan. I want to thank you, Chairman Salmon.
    Very timely hearing.
    And I want to note at the outset that I am encouraged by El 
Salvador, Guatemala, and Honduras' willingness to work together 
to address the factors contributing to the child migration 
crisis. We saw, on our southern border earlier this year, we 
saw more than 68,500 unaccompanied minors apprehended between 
October 1 of last year and September 30 this year. It is a 77 
percent increase compared to Fiscal Year 2013. And while there 
is a lot of good in their plan, I am concerned that the plan 
does not address corruption, security, rule of law, enough. It 
appears to be a centralized top-down approach that does not 
empower municipalities or individual citizens as uniform 
approach for the three very different countries with varying 
political wills.
    Additionally, in June, Vice President Biden announced that 
the U.S. would provide $9.6 million to Central America. In 
July, the administration requested an additional $300 million 
for programs in Central America. I am interested to know what 
the administration's strategy for Central America, Latin 
America, and Caribbean region in general is before we start 
increasing the flow of money. I am deeply concerned and alarmed 
by this administration's attempt at backdoor amnesty through 
the new in-country refugee and parole program announced Friday, 
which allows children and their parents who have a parent or 
spouse in the U.S. that is a deferred action for childhood 
arrivals or DACA recipient, deferred action recipient granted 
for at least 1 year, or deferred enforced departure recipient 
to initiative a refugee application. I look forward to digging 
deeper into that during the question-and-answer period today.
    Mr. Chairman, I yield back.
    Mr. Salmon. Thank you.
    And I yield to the gentleman from Florida.
    Mr. DeSantis. Well, thanks, Mr. Chairman.
    And thanks to the witnesses for coming. Before we get into 
this hearing, this is the first time this subcommittee has met, 
I believe since we were here at the very end of September for a 
very important issue that you really led on trying to get our 
Marine back from Mexico. And I just wanted to, one, just 
publicly say how thankful we are that he is back, but, two, to 
thank you for your leadership on this. I bugged you on the 
House floor numerous times. And I know you were frustrated 
about how long it was taking, but you never let that deter you. 
You stayed with it. You were travelling down there to meet with 
him, and I can tell you my constituents in Florida were really 
pumped when he came back, and a lot of that has to do with your 
hard work.
    Mr. Salmon. Would the gentleman yield?
    Mr. DeSantis. I will.
    Mr. Salmon. I do want to say that after having met Sergeant 
Tahmooressi when he came home and followed up on numerous 
occasions with friends and family, I am very, very worried 
about him. And I have mentioned this, and I would just like to 
ask anybody out there in the sound of our voice to pray for him 
and to offer your support because he is going to need all the 
help he can get. He was already diagnosed with PTSD, and the 7 
months plus in prison only made it worse. And I am very 
concerned about his well-being. He is a very troubled young 
man, and he needs our thoughts and our prayers.
    I yield back.
    Mr. DeSantis. And I agree wholeheartedly with that, and our 
veterans when they come back with the post-traumatic stress 
obviously very difficult then to be put in that situation where 
that condition is being exacerbated. We all need to keep him in 
our thoughts and prayers because it is not going to be easy for 
him.
    But I just wanted to publicly thank you for your 
determination, and I think that this subcommittee had a lot to 
do with it under your leadership.
    And I yield back.
    Mr. Salmon. Thank you very much.
    Pursuant to Committee Rule VII, the members of the 
subcommittee will be permitted to submit written statements to 
be included in the official hearing record. And, without 
objection, the hearing record will remain open for 7 days to 
allow statements, questions, and extraneous materials for the 
record, subject to the length limitation in the rules.
    I am going to go ahead and introduce the panel now. First 
of all, we have the Honorable Roberta Jacobson. She is the 
Assistant Secretary for Western Hemisphere Affairs at the 
Department of State. She has also served as the Senior 
Coordinator for Citizen Security Initiatives in the Western 
Hemisphere, and as Deputy Chief of Mission at the U.S. Embassy 
in Lima, Peru.
    And on a personal note, I have not found in my political 
and professional experience anybody that I enjoyed working with 
more than her. She is a professional in every way and has a big 
heart and a big mind.
    And I am so appreciative of all the great work that you 
have done. And I just want you to know there is a lot of good 
will emanating from committee members. We might differ on 
policy and have questions, but we never, ever have a trust gap 
with you, and I want you to know that from the bottom of the 
heart.
    Ms. Hogan, another stellar individual that we have just 
been thrilled to be working with, is the Acting Assistant 
Administrator for U.S. Agency for International Development's 
Bureau for Latin America and the Caribbean. Previously, she 
served as the director of the agency's Haiti Task Team, 
overseeing reconstruction efforts after the 2010 earthquake, 
and we thank you for being here.
    Mr. Robert Kaplan is the President and CEO of the Inter-
American Foundation. Previously, he worked at the Inter-
American Development Bank in the Division for Mexico, Central 
America, Dominican Republican, and Haiti.
    We also have Ms. Wiesner. She is the Deputy Assistant 
Secretary, and she is here in an advisory capacity, and we 
appreciate that. She is Deputy Assistant Secretary in the 
Bureau of Population, Refugees, and Migration at the State 
Department. Previously, she worked at the Pentagon in the 
African Affairs Division and as a consultant in the fields of 
humanitarian assistance, peace process, and post-conflict 
programming.
    You all understand and know the lighting system. It will be 
green until the last minute. And then it will go amber. And it 
will let you know that you have got 1 minute left. And then 
when it goes red, you are out of time, and we would appreciate 
if you conclude there. And then we will have questions from 
members.
    So, Ms. Jacobson, I will recognize you first.

   STATEMENT OF THE HONORABLE ROBERTA S. JACOBSON, ASSISTANT 
     SECRETARY, BUREAU OF WESTERN HEMISPHERE AFFAIRS, U.S. 
                      DEPARTMENT OF STATE

    Ms. Jacobson. Thank you, Mr. Chairman.
    And let me start by associating myself with Congressman 
DeSantis' comments. I think that for all of us who worked to 
get Sergeant Tahmooressi home, we greatly appreciate your 
leadership in this matter.
    I would like to thank you and the members of the committee 
for being here today to talk about the U.S. strategy for 
engagement in Central America. I know that many of you and you, 
personally, Mr. Chairman, have been so involved in our efforts 
to develop a humane and effective response to the unaccompanied 
children and families arriving at our Southwest border. 
Although we are encouraged that the numbers have decreased 
recently, we know we cannot let up in our efforts to protect 
vulnerable migrants and address the underlying factors that 
push them north.
    This year, as noted, more than 50,000 unaccompanied 
children left their homes in Central America to make that 
journey. And the spike in migration is a warning sign that 
longstanding challenges in Central America remain very 
problematic. We must address the underlying factors compelling 
migration, or we are doomed to repeat that migration.
    We believe that the essential condition for finding a 
solution is present, and that is political will in the region. 
Last week, the Inter-American Development Bank hosted a 
conference on Central America, where Vice President Biden and 
the Presidents from the three northern triangle countries spoke 
about opportunities and challenges for growth. The Presidents 
publicly presented a plan called the Alliance for Prosperity, 
and it includes a clear-eyed assessment of the region's 
challenges and specific steps that they themselves will take to 
resolve them.
    But their message at the conference was simple. They will 
take those tough choices to address the challenges, but they 
need our help. So, over the past 18 months, the U.S. Government 
has taken a hard look at both our approach and our investments. 
While security is paramount, we have broadened our vision for 
how to achieve it and developed an interagency strategy that 
both aligns and supports the objectives of the Alliance for 
Prosperity.
    To achieve that vision in which all the citizens in Central 
America choose to remain and thrive in those countries, we need 
to focus on prosperity, governance, and security. Prosperity 
agenda fosters integration of a regional market of 43 million 
people so that local businesses can become more competitive and 
the region attractive to international investors. Economic 
growth and economic opportunity has to give young people 
options beyond criminality or immigration.
    Our governance agenda recognizes that economic growth and 
security are only sustainable when the rule of law and 
democratic institutions flourish and civil society and media 
can play their rightful roles and corruption is reduced.
    And the prosperity and governance agendas are essential for 
the security agenda which we must act on effectively now. 
Otherwise, the payoff from those other two will not bear fruit 
in the longer term.
    We are a long way from achieving those goals in Central 
America, and that was obvious last summer in the risk that 
thousands of children took, the risk of ever-present rape, 
abuse and death, to flee the dire conditions in their home 
countries.
    But, Mr. Chairman, over the past few months we have seen 
important successes. Our public messaging campaigns about the 
dangers of those journeys has effectively countered false 
messages. Increased focus on smuggling networks in Honduras and 
Guatemala has led to the arrest and rescue of over 235 
children, and the Government of Mexico has been a vital and 
capable partner. Apprehensions are down to levels not seen 
since January 2013.
    But we know that this must be sustained by increased 
commitments by both the administration and Congress. And so, 
yes, we have as one alternative offered, at the direction of 
the White House, a new program that will allow parents lawfully 
present in the United States from those three countries to 
petition for their children in El Salvador, Guatemala, and 
Honduras to come to the United States as refugees. Those 
children not eligible for refugee status may be considered on a 
case-by-case basis for humanitarian parole. And it is equally 
important that we fund the implementation of this strategy, 
which could take as much as $5 billion over 5 years to fully 
implement.
    We believe, again, that there is reason for optimism about 
Central America. The three leaders of the northern triangle 
have already begun to take tough decisions and are investing 
their own national budgets. We have a vision and a plan, and we 
want to work with you to help Central America and protect U.S. 
national security. Thank you very much.
    Mr. Salmon. Thank you.
    [The prepared statement of Ms. Jacobson follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                              ----------                              

    Mr. Salmon. We will move to Ms. Hogan.

      STATEMENT OF MS. ELIZABETH HOGAN, ACTING ASSISTANT 
ADMINISTRATOR, BUREAU FOR LATIN AMERICA AND THE CARIBBEAN, U.S. 
              AGENCY FOR INTERNATIONAL DEVELOPMENT

    Ms. Hogan. Thank you.
    Chairman Salmon, Ranking Member Sires, members of the 
subcommittee, thank you for the opportunity to share how USAID 
is responding to the challenge of unaccompanied minors 
migrating from Central America to the U.S. border. Our response 
to this challenge is consistent with USAID's mission, which is 
to partner to end extreme poverty and promote resilient 
democratic societies while advancing our security and 
prosperity.
    In recognition of the gravity of the development challenges 
in Central America and the impact those challenges could have 
on the United States, USAID has maintained funding levels in 
Central America, even in a constrained budget environment. In 
fact, we have shifted approximately $100 million over the last 
5 years from USAID programs in South America to Central 
America.
    However, as the recent spike of unaccompanied minors over 
the summer clearly demonstrates, more needs to be done. This is 
why the administration requested additional resources in the 
Fiscal Year 2014 supplemental budget. We believe these 
additional resources will result in security and development 
gains that far exceed their costs, even in the short run. 
Through the Central America Regional Security Initiative, or 
CARSI, we are supporting crime and violence prevention programs 
that expand opportunities for youths living in high-crime 
neighborhoods and strengthening the institutions charged with 
administering justice and keeping people safe.
    USAID's prevention strategy revolves around smart 
targeting, both geographic and demographic, concentrating 
prevention efforts on high-risk youth and high-risk 
communities. I am pleased to report that we have independent 
evidence that our programs are working. The final results from 
a rigorous 4-year impact evaluation carried out by Vanderbilt 
University in El Salvador, Guatemala, Honduras, and Panama, 
show that as a direct result of USAID programs, reported crime 
is lower, and citizens feel safer in the neighborhoods where we 
are working.
    When compared to a 2010 baseline in these same target 
communities, the Vanderbilt evaluation found that, in 
Guatemala, 60 percent fewer residents reported being aware of 
homicides; in Honduras, 57 percent fewer reported being aware 
of extortion; and in El Salvador, 36 percent fewer reported 
being aware of illegal drug sales in their neighborhoods. In 
short, where USAID works, people see their communities getting 
better.
    The adoption, ownership, and expansion of proven approaches 
by Central American governments are more important than ever. 
President Hernandez of Honduras has publicly committed to 
allocating 30 percent of the funds collected through the 
country's security tax to support prevention programs like 
ours.
    In Guatemala, the government has expanded USAID's 
successful 24-hour court model to additional communities.
    And the Government of El Salvador launched its ambitious 
new National Strategy for Violence Prevention in February to 
empower municipalities to lead prevention efforts.
    While insecurity is cited as a primary driver for the 
migration of minors from the region, the lack of jobs and 
economic opportunity at home is also a critical factor. USAID's 
development programs also seek to improve educational 
opportunities and livelihoods for the poor in rural areas. 
These programs remain imminently relevant because they 
complement and amplify our youth and urban-oriented crime 
prevention programming. For example, in El Salvador, a USAID 
partnership unlocked $25 million for small businesses to help 
spur job creation. As part of our Feed the Future investments 
in Honduras, USAID is promoting sustainable agricultural 
practices in the country's drought-plagued region to improve 
the livelihoods and food security of 50,000 families. These 
kind of economic development programs align with our crime 
prevention programs to build a foundation for prosperity and, 
in so doing, relieve the pressure on youths and their families 
to migrate north.
    USAID continues to successfully utilize partnerships with 
the private sector to supplement and sustain our investments in 
Central America. We have leveraged approximately $40 million in 
private sector resources to support at-risk youth. In Honduras, 
we have developed 41 partnerships with companies to strengthen 
key agricultural value chains. We are also partnering with 
coffee industry leaders, like Starbucks, to help coffee farmers 
recover from the devastating impact of the coffee rust 
outbreak.
    In closing, Mr. Chairman, despite the continued commitment 
of the region's governments and private entities, we recognize 
that our current levels of resources are insufficient to spur 
the kind of large-scale, transformative change needed in the 
region. Additional funding would enable us to significantly 
scale successful programs in the communities in greatest need 
and fully implement the U.S. Government strategy for engagement 
with Central America, balancing the three interrelated 
objectives of prosperity, governance, and security.
    Thank you very much, and I look forward to your questions.
    Mr. Salmon. Thank you.
    [The prepared statement of Ms. Hogan follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Salmon. Mr. Kaplan.

    STATEMENT OF MR. ROBERT N. KAPLAN, PRESIDENT AND CHIEF 
          EXECUTIVE OFFICER, INTER-AMERICAN FOUNDATION

    Mr. Kaplan. Chairman Salmon, Ranking Member Sires, and 
members of the subcommittee, thank you for the opportunity to 
appear today to testify on behalf of the Inter-American 
Foundation, an independent U.S. foreign assistance agency that 
works directly with the organized poor in Latin America and the 
Caribbean.
    We appreciate the subcommittee's longstanding support of 
our mission to help people in the region help themselves. You 
well know the long list of push factors in Central America that 
contribute to the individuals' decisions to leave their 
community. In the poor communities where the IAF works, we see 
the human costs of too few jobs, barriers to starting and 
sustaining small enterprises, and a lack of educational 
opportunities.
    In the northern triangle of Central America, one quarter of 
the population subsists on less than $2 a day. Violence is 
chronic. Government institutions are too often absent, and 
community safety nets have broken down. Facing these threats, 
families do not know where to turn. In this context, the IAF 
invests carefully to help local citizens gain some control over 
their lives by carrying out initiatives that they themselves 
conceive.
    Our grantees demonstrate their commitment by contributing 
their own funds to the effort. On average, they provide about 
$1.30 for every dollar invested by the IAF, making the U.S. a 
minority partner in the development projects we support. Today 
our active portfolio in Central America includes 81 projects, 
representing $37 million of combined investment by the IAF and 
our grantee partners.
    In the three northern triangle countries, we are supporting 
local initiatives in over 880 communities. Our work is not 
limited to youth, but 45 percent of our investment in these 
three countries benefits young people directly.
    Our work is having a real effect: 14,300 new jobs for low-
income people have been created. In the northern triangle 
alone, 80 percent of our grantee partners who track household 
income reported an increase, on average more than doubling 
household income in a year. And it has reduced the appeal of 
migration.
    At the beginning of an IAF-funded project in El Salvador, 
83 percent of participants under 26 said they would consider 
migrating. By mid-project, the number was down to 22 percent. A 
grantee partner in Guatemala combined education about the risks 
of migration with a credit program in training for small 
farming businesses. By the end of the grant, 79 percent of the 
730 young participants said they had decided not to migrate.
    Equally important is building citizens' ability to engage 
their government, a challenging goal in poor communities where 
many citizens are not equipped to voice concerns or engage with 
local officials.
    We have seen that when disadvantaged youths come together 
on their own initiative to build skills and safe spaces, start 
their own small businesses, and exercise leadership and 
teamwork for the benefit of their community, they are less 
likely to leave. Why? Because they become invested in the 
present and future of their home communities.
    One Honduran teenager in Tegucigalpa recently told us: 
``Before participating in the program, I wanted only to follow 
the American dream. Now I believe that I can create my American 
dream here.'' The IAF does much more than send dollars to the 
region, and the direct results of the projects we fund tell 
only part of the story. Our whole approach is designed to 
strengthen the capabilities of our grantee partners so they can 
take on even bigger challenges. Fundamentally, we want them to 
learn from each other and be leaders in their own communities. 
In the process, they create social and economic anchors at home 
and demonstrate their preference to stay.
    In fact, I am encouraged because we see many opportunities 
at the grassroots level to address the causes of youth 
migration. The impact of a single thriving community, an 
organized group of rural poor, or an inspired young person in 
an urban slum may seem small, but they become the safe havens 
and incubators of change that inspire others. If reached, if 
empowered, and if connected to each other, they are capable of 
generating the sea change so desperately needed in the region. 
They need a chance to become citizens because fundamentally, 
they are the ones who will change their communities and their 
countries.
    Forty-five years ago, a small congressional delegation of 
members of this committee paid a visit to Central America. What 
they learned was not surprising, that true long-lasting change 
depends in large part on thriving communities, communities that 
provide not only social and economic opportunities for the most 
marginalized but are themselves foundations upon which 
democracies are built. One result from that trip was the 
creation of the Inter-American Foundation, which helps support 
the protagonists, not participants, in their own development.
    Our work naturally complements other U.S. efforts for 
improving prosperity, governance, and security in Central 
American countries. Again, I thank the subcommittee for the 
opportunity to testify before you today on behalf of the IAF 
and our thousands of grassroots partners in the region.
    Mr. Salmon. Thank you.
    [The prepared statement of Mr. Kaplan follows:]
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    
                              ----------                              

    Mr. Salmon. I am going to go ahead and ask questions, and 
then I will yield to the ranking member. My first question, 
maybe it would be most appropriate for you, Assistant 
Secretary, or Ms. Wiesner, but according to the information the 
administration released last Friday, individuals residing in 
the U.S. will be able to petition for refugee status for their 
children and their spouses living in Central America. This is, 
therefore, a family reunification program, presumably the 
priority 3, P-3 category. Under 8-CFR Section 207, a principal 
refugee admitted to the United States may request follow to 
join benefits for his or her spouse and/or unmarried children 
under the age of 21 if the family has become separated.
    My question is this: Are the family members living in the 
U.S. who will petition for these children refugees? Are they 
refugees, and if they are, have they been deemed as such, have 
they been deemed refugees? If not, under what authority are the 
nonrefugees living in the United States under a whole host of 
statuses allowed to petition refugee status for their family 
member?
    Ms. Jacobson. Thank you, Mr. Chairman.
    And I am going to turn to DAS Wiesner, who is much more 
expert in this, because I do think that this is not, in fact, 
the standard program that you are describing. It is something 
quite different, it is designed to focus on the children in-
country who are obviously the ones that we are trying to get 
out of such a difficult circumstance in the three northern 
triangle countries without having them attempt this very 
dangerous journey and try and enter the country in the 
undocumented status as they did last year.
    Catherine.
    Ms. Wiesner. Sure. So to try to answer your question, and 
please follow up if I missed part of it. You asked if this is 
part of the P-3 program. It is not exactly the P-3 program; 
that is based on people who are out of their country of origin 
already as refugees.
    You asked if the parents themselves in the United States 
would be considered refugees under this program. They are not. 
They are considered under the statuses under which they are 
here. So they are either here as Lawful Permanent Residents or 
the additional six statuses that are eligible to apply. So the 
refugee claim is a claim of the child themselves, the child 
facing a risk of persecution, either they have experienced 
persecution or they have a well-founded fear of persecution in 
their home country on one of the five protected grounds. The 
five protected grounds are their race, their religion, their 
nationality, their political opinion, or their membership in a 
particular social group.
    So maybe another way to put it is the eligibility to 
petition in this program is one category. And those are the 
parents and their statuses here in the United States. But in 
order to be granted refugee status, the child themselves have 
to show that they are eligible for that status.
    Mr. Salmon. So it is not the P-3 program?
    Ms. Wiesner. It is not the P-3 program.
    Mr. Salmon. If a minor or spouse is not granted refugee 
status, they will be considered for parole. What kind of visa 
will they then be entering the United States with? And how will 
we be able to ensure that they don't overstay if their 2-year 
renewal is not approved? And then, finally, the administration 
noticed the parolees would be able to attend school? Will a 
minor be allowed to attend a public university once he or she 
becomes of age? Will they qualify for Federal grants and State 
aid? And what is the real difference between a refugee and a 
parolee who can potentially apply for DACA if his parole status 
is not renewed?
    Ms. Wiesner. So I can definitely talk about some of the 
differences between the assistance offered to refugees who are 
resettled and what is available to parolees, but for details on 
the parole program, I will have to refer you to the Department 
of Homeland Security, who administers the parole program.
    So when a refugee comes to the United States under our 
resettlement program, they are eligible for a range of 
benefits, which include a resettlement and placement grant that 
is administered from the State Department through our 
resettlement agencies. And then they are also eligible for 
follow-on refugee benefits from Health and Human Services. And 
it includes things like assistance in enrolling in school when 
they become of age. If they are of age, then assistance getting 
jobs and housing. These will be children joining parents, so we 
assume that their parents already have housing and jobs, so it 
is really more about getting them into school as refugees.
    As well, there is no cost to apply to the program in either 
case, but if you come as a refugee, your medical check is free. 
And you will get a loan to take the flight to the United 
States, which you then have to repay back later.
    Parolee is a temporary--sorry, one of the more important 
aspects of refugee settlement is that it is a path to legal 
permanent status and to citizenship, and that is one of the 
main differences with parolees. That is a temporary status. As 
you noted, it often usually lasts for 2 years, and you have to 
apply for renewal.
    None of the benefits that I just mentioned for resettlement 
are available to parolees either. In fact, if you are not 
eligible for refugee status and are considered for parole, then 
your family has to submit an affidavit of support which shows 
that they are able to support you here in the United States.
    Mr. Salmon. And if it is not the P-3 program, what is it? 
What program is it?
    Ms. Wiesner. It is called in-country refugee processing, 
which is allowed--I mean, it is accounted for in the law. Both 
refugee status and parole discretion are in the Immigration and 
Nationality Act.
    Mr. Salmon. Do you know what law it is under just so we can 
reference it?
    Ms. Wiesner. We can get the specific citations.
    Mr. Salmon. That is fine.
    I recognize the ranking member.
    Mr. Sires. First of all, Chairman, let me apologize for 
being late.
    These days we have a lot of things going on. You know, I am 
upset about something that happened to us as this exodus 
happened. And I am very concerned about the origin of how this 
happened. I will go back and forth. Just try to follow me.
    When this whole thing started--and everybody is shocked 
about the kids and the conditions and everything else. The 
Hispanic Caucus called a meeting, and we asked the Ambassadors 
from these countries to come to the meeting so we can discuss 
how this whole thing started. Do you believe we got one 
Ambassador from these countries, and they sent staffers. 
Meanwhile, we have like 13, 14, 15 Congress Members at this 
meeting, and we have to now try to deal with staffers.
    To me, that shows me that maybe they were not as serious at 
trying to stop this. To me, that just, I just don't know if 
this whole stampede started as a rumor. And all these kids all 
of a sudden came across the border because of the rumors that 
started.
    But if 14 or 15 Members of Congress call for a meeting to 
try to help--this is the Hispanic Caucus trying to help--you 
don't send a staffer to the meeting. You try to deal with the 
situation and see how it can best be alleviated. So I am more 
concerned about the roots of why this happened. And then, 
obviously, we have to deal after they get here.
    Right now there is a lull. Obviously, there is not as many 
kids coming over, but I don't want to see this being used as a 
release on a pressure cooker on somebody saying we start this 
rumors and we get the coyotes to get these rumors, and you are 
going to have a rush of kids coming over. I just don't know how 
you deal with that.
    Ms. Jacobson. If I could, Mr. Sires, the only thing I would 
say is that I think one of the things that last summer taught 
all of us, both here in the United States but especially in 
these countries, was it was a wake-up call for some of the 
countries in terms of what they needed to do at home. And what 
we have seen over the last 5 months is a real shift in the 
attention to some of the underlying issues and in the will to 
address those issues back home to ensure that some of the areas 
that were not getting the attention they deserved 
geographically, because we know where most of the kids are 
coming from and their families, and economically and in terms 
of level of violence, which were not being attended to by 
either national governments or local governments. So I do think 
you see a difference, as you saw reflected in the three 
Presidents here last week, in the attention to those causes.
    Mr. Sires. Does anybody have any other observation?
    Mr. Kaplan. Yes. I can't speak to what the Ambassadors did 
here, but I have to say that on the ground, in the communities 
where we are working, hundreds of communities throughout the 
region, the objective conditions on the ground are really as 
horrendous as everybody has been describing them with levels of 
violence and poverty.
    Mr. Sires. I don't doubt that at all. I am a Hispanic. I 
think I know a little bit about the Western Hemisphere. But my 
concern is this business of using a rumor or starting a 
stampede to release the pressure of what is happening in these 
countries.
    So we have to really try to address--and I know you are 
doing your best and some of the USAID is doing their best, but 
I don't know if it is enough because I don't think this is 
going to be over. I think this is going to continue, and then, 
obviously, we are going to have to deal with the immigration 
issue here in America and how to deal with our own issues here.
    Ms. Jacobson. But you have also had governments that have 
stepped up their antismuggling legislation and the units that 
they are using to go after those traffickers and to put out the 
message that this won't be tolerated as well, so I think that 
is very important.
    Mr. Sires. I think what happened was those governments 
realized how upset this country was, and they were concerned 
that maybe some of the aid would be cut if they don't step up 
to the plate and start doing some things about what is going on 
in their own country with their own children.
    Thank you, Mr. Chairman.
    Mr. Salmon. Thank you.
    The Chair recognizes the gentleman from South Carolina, Mr. 
Duncan.
    Mr. Duncan. Thank you, Mr. Chairman. Thanks for your work 
on this this summer. It was a real problem and you went to try 
to get your hands around and head around what was going on.
    The President is supposed to consult with Congress to 
establish the number and groups of refugees eligible for 
admission each fiscal year.
    Ms. Jacobson, under what authority are you establishing the 
in-country refugee and parole program?
    Ms. Jacobson. Well, I will be happy to ask Catherine to say 
anything further that she needs to, but my understanding is 
that when the numbers for the fiscal year are sent to Congress, 
as they were this September----
    Mr. Duncan. Four thousand----
    Ms. Jacobson. Those numbers obviously are the numbers that 
we are working with. Those are the numbers that will include 
any increases in Central America. Obviously, a program like 
this would take time to set up. We would not expect numbers of 
any magnitude to really be seen until, frankly, quite a ways 
down the road, frankly probably late into 2015. Were we to need 
any additional numbers beyond that 4,000, there is some 
flexibility within the overall numbers, but we anticipate those 
numbers being adequate for the coming year.
    Mr. Duncan. So you are telling me nobody has been processed 
through this program to date?
    Ms. Jacobson. No. That is correct. In fact, the program 
itself will not even begin to take applications into it any 
earlier than at least the beginning of December. It has not 
begun. And, obviously, as a new program, this will begin, and 
we will see in terms of the kinds of response that we get.
    Mr. Duncan. Who sets the cap?
    Ms. Jacobson. Well, in a program like this, there is no cap 
at the outset. We have to see who qualifies for the----
    Mr. Duncan. It is just an open number of refugees that are 
able to come into this country? There is no cap?
    Ms. Jacobson. Obviously, what we sent to Congress is the 
overall cap in refugees. That stands.
    Mr. Duncan. What is the cap for 2015.
    Ms. Jacobson. Four thousand for this region. I don't know 
what the global number is.
    Ms. Wiesner. Sir, the global number is 70,000, and that is 
established by Presidential authority and Presidential 
determination.
    Mr. Duncan. That is from all countries?
    Ms. Wiesner. That is globally, exactly, and so 70,000 is a 
cap. It is what we budget against.
    Mr. Duncan. What is the cap for Central America?
    Ms. Wiesner. And then, within that, we make allocations. 
For Latin America and the Caribbean, the allocation right now 
is 4,000.
    Mr. Duncan. Do you anticipate any change and increase in 
those number for Central America out of that global number?
    Ms. Wiesner. We left at 4,000 because we thought that was 
probably appropriate, but there is some flexibility to change 
it if need be over the course of the----
    Mr. Duncan. We are seeing Syrian refugees. We are seeing 
Afghans, Iraqis. There is a global need of people seeking to 
come to this country. So I guess what I am asking, are you 
planning on expanding the number from Central America, or are 
you going to leave it sort of like it is, status quo?
    Ms. Wiesner. At this point we left it at 4,000. I would 
just add that in addition to including this in-country program 
specifically in the report that went to Congress in September, 
we did the required consultations with the Judiciary Committee, 
where this program was raised, and also did staff briefings 
back in September, so there has been some consultation in 
advance of the Vice President's remarks on Friday.
    Mr. Duncan. And I am not saying which number is right or 
wrong. I am just trying to get my head around what you are 
going to do with that allocation.
    I have a question just reading this. You know, in this 
country, you can vote when you are 18. You can sign a contract 
and be tied to that when you are 18. You can get married. You 
can be tried as an adult at 18. But in everything I am reading 
here, you are identifying children as 21 and younger. Why?
    Ms. Wiesner. That is the definition of minor children that 
DHS uses according to the law.
    Mr. Duncan. By the way, we asked DHS to come to this 
hearing, and they refused. That was my request.
    It is interesting because a parent is eligible to request 
program access for his child who is a resident in one of the 
three countries if the parent is at least 18 years old, but the 
child--you are going to identify a child as 21 or younger, but 
you are saying a parent has to be at least 18. There seems to 
be some hypocrisy there.
    If we need to change that in the law, we will change it. 
But there is hypocrisy of the two ages. In the United States, 
you are a child until you are 18 years old. Do you agree with 
that?
    Ms. Wiesner. The definition of a minor youth is in the law, 
but, obviously, if the petitioning parent is 18, the child is 
going to be significantly younger than that.
    Mr. Salmon. My wife says I am still a child.
    Mr. Duncan. This is true.
    So you are allowing the children. And, from what I am 
hearing, you all have found a way to get these children into 
this country without them having to take that arduous journey 
across Mexico and on the trains and everything that we have 
seen.
    What specific circumstances would you allow a second parent 
residing in the home country, say El Salvador, Guatemala, or 
Honduras, to be added to the child's petition and be considered 
a refugee? Not just talking about the children. Mom if she is 
in El Salvador, or dad, can come with them.
    Ms. Wiesner. Right. So they have to be the parent of the 
child, or they have to have been married to the petitioning 
parent in the United States at the time that that parent 
received their legal status in the United States.
    Mr. Duncan. Is that common practice for other countries as 
well for refugee status? Do we allow mom and dad to come with 
the child?
    Ms. Wiesner. That is actually the P-3 program that the 
chairman spoke about previously.
    Mr. Duncan. Historically, in the P-3 program, do we allow 
mom and dad to accompany the child?
    Ms. Wiesner. It is usually the child accompanying the mom 
and dad in that case.
    Mr. Duncan. What circumstances would prevent a parent from 
being considered for refugee status?
    Ms. Wiesner. The same definition for refugee status applies 
for the child as for the parent. If the parent is not eligible 
for refugee status, then they could be considered for parole.
    Mr. Duncan. Okay. My time is up.
    Are we going to have another round of questions? I just 
yield back right now.
    Mr. Salmon. The Chair recognizes the gentleman from 
Florida, Mr. DeSantis.
    Mr. DeSantis. Thank you, Mr. Chairman.
    I guess the issue with me is our policies that are adopted 
particularly unilaterally now by the administration more and 
more, that effects the behavior that we see. When the President 
did the administrative amnesty for minors in 2012, that was a 
signal that was sent. You had Biden going down this summer 
saying, no, no, no, it doesn't apply to you, only if you were 
here a certain time. The Honduran President said there was a 
lack of clarity in U.S. laws that were contributing to this 
surge.
    I wanted to ask--and my colleague from South Carolina 
mentioned DHS. I wish they would have been here. An issue that 
I think does send a signal for people to come illegally that 
involves both DHS and Department of State. I was shocked when 
we received this report on the Judiciary Committee: Fiscal Year 
2013, ICE released 36,700 convicted criminals who were in the 
country illegally rather than have them detained, pending 
outcome of deportation proceedings. We always hear, we got to 
focus the resources on the criminals, the people who really 
mean us harm. Some of the convictions that these people were 
convicted: 193 homicide convictions, 426 sexual assault 
convictions, kidnapping, aggravated assault, vehicle theft, 
drug trafficking, very, very serious offenses. And yet DHS is 
releasing these individuals into American society rather than 
repatriate them back to their nation of origin.
    Now, what does that have to do with the State Department? 
Here is why. Now, not all of them. We asked DHS to provide us 
the list of offenses and identify reasons to the best they 
could why they were released. Some of the people they claimed 
that they want to return them to their home country, but their 
home country just won't accept them. They are only allowed to 
hold people for so long under binding court decisions, and so 
they have no choice but to release them.
    The way I understand the system is supposed to work is that 
you have somebody, let's say that has been convicted of rape. 
They are here illegally. No right to be here. Our Government is 
supposed to go to that country. Let's say it is China. You go 
to China, and you say, hey, here, take your national. And if 
China doesn't take them back, then we are under 8 U.S.C. 
Section 1253, subsection delta, the Secretary of Department of 
State shall order the consular offices in that foreign country 
to discontinue granting visas to nationals and citizens of that 
country until DHS has certified that they are accepting their 
convicted foreign nationals.
    So, Secretary Jacobson, we know that some of these people 
who had been are convicted are from countries in the Western 
Hemisphere. Has the State Department ordered any consular 
offices in any of those countries to stop granting visas 
because those countries have not accepted some of these 
convicted criminal illegal immigrants?
    Ms. Jacobson. We have not, Congressman, and the main reason 
we have not is, as you, I think, realize, the cutting off of 
visa services to a country is an extreme step that really 
leaves us sort of----
    Mr. DeSantis. Well, actually, it may be that, but as I read 
it, I think the statute says that the Secretary of State shall 
order.
    Ms. Jacobson. Sir, the only thing that I would like to add 
is all three of these countries are taking back criminal 
deportees. They may not be taking back all of them, and they 
certainly are not taking back as quickly as we would like in 
terms of the court's ability to hold them or authority to hold 
them.
    Mr. DeSantis. And I understand that. What the countries are 
doing is one thing. I want to try to hone in on how the State 
Department----
    Mr. Jacobson. You have to have documentation to go back, 
and that is what we have to work out with the Country. Right?
    Mr. DeSantis. No, no. I understand that, but my point is 
these people are being released, so clearly there was a 
breakdown somewhere along the line. Now, as I read the statute, 
I think a lot of my colleagues on Judiciary, we believe that 
that is the way the system works. You don't take them back, the 
State then takes the step that it is an obligatory duty. The 
statute uses the word ``shall.'' Now, in your initial response, 
you suggested that that may be an extreme measure, and that it 
is a discretionary--it is up to the Secretary to determine 
whether that step needs to be taken, and as I read it, Congress 
has expressed the will that the Secretary of State needs to do 
this. So is it an obligatory duty?
    Ms. Jacobson. I am sitting here before you. I want to be 
honest. I am not a lawyer, and my lawyers at the Department 
would get nervous if I tried to interpret law here. But those 
countries are taking back criminal deportees. They have not 
refused as a matter of policy or their own law.
    Mr. DeSantis. You are talking about just the three 
countries at issue here?
    Ms. Jacobson. In particular, yes.
    Mr. DeSantis. But there are other countries in the Western 
Hemisphere who have not taken some of the deportees because if 
there is not, then we are getting two different stories between 
State and DHS. That is why I think it would have been good to 
have DHS here.
    Ms. Jacobson. I would have liked to have my colleagues 
here, but I think what we are talking about is the question of 
whether it is a country's policy not to take back any criminal 
deportees or whether they are simply not taking back as many or 
as quickly as we would like them to take it back.
    Mr. DeSantis. I don't even think it needs to be a policy. I 
think as soon as DHS notifies the State Department that the 
government of a foreign country denies or unreasonably delays 
accepting an alien who is a citizen--maybe it has to be in all 
cases, I don't know. But it seems clear to me that if we are in 
a situation where we are releasing, DHS is releasing a lot of 
these people, maybe they are just not notifying the State 
Department about everyone that they are releasing. I would want 
to know that information, too. Maybe it is that they are 
notifying the State Department, and the State Department is not 
taking the step that the statute requires. Maybe the State 
Department is actually returning a portion of them, but I 
think, you look at someone, the President or people on the very 
far left who want essentially an open border; people on the far 
right don't want--they want to stop even some legal 
immigration--everyone in that whole gambit believes that when 
people are here and committing serious criminal offenses, that 
we need to protect the American people and send them back.
    Ms. Jacobson. We are absolutely in the same place on that, 
and let me assure you that DHS and the State Department work 
really closely on the issue of criminal deportees. And when we 
are notified by DHS, we work really closely with them to push 
very hard to get countries to take back those criminal 
deportees.
    Mr. DeSantis. But not hard enough to where you would 
actually stop the issuing of visas?
    Mr. Jacobson. We succeed very often in getting criminal 
deportees returned.
    Mr. DeSantis. I appreciate that, but very often, so we had 
193 homicide convictions. Let's just say 20 of those from the 
Western Hemisphere, very often maybe we return 15 of them. That 
means you have five people that are going to be released by 
ICE, which I don't think is an acceptable number. I want to get 
to the bottom, and maybe this is something we can do jointly 
between this subcommittee and Judiciary.
    Mr. Salmon. Actually, if the gentleman would yield.
    Mr. DeSantis. Yep.
    Mr. Salmon. It is something I am pursuing. Our sheriff of 
Maricopa County approached me--I don't know how many of you 
remember a few weeks ago the two sheriff deputies in California 
that were murdered by an illegal----
    Mr. DeSantis. Right.
    Mr. Salmon [continuing]. Somebody that was here illegally. 
Well, he had been in our Arpaio's jail four different times and 
released by INS--or, excuse me, by DHS four different times, 
and then he told me there are thousands that come through his 
jail alone that are flagged by DHS, whether it is a rape or a 
murder or drug charges, they are flagged, and then they are 
taken and they don't know where they go.
    The sheriff has no idea whether they are released into the 
States, here in the States, or if they are deported and sent 
back, but he does know that they are coming back to his prison 
again because they are being re-arrested for different crimes 
that they have committed since the original crime that they 
were arrested for.
    Mr. DeSantis. Well, look, Mr. Chairman, you know, we can 
get DHS here, we can get some people from Judiciary, Homeland 
Security, because at the end of the day, 36,000 convicts and 
the total number of convictions in Fiscal Year 2013, 88,000 
convictions among that class, that clearly is not doing what is 
necessary to keep the American people safe, and so there is a 
breakdown somewhere, and I don't----
    It was tough getting the information from DHS to begin 
with, but I want to see, because I think the system is supposed 
to work to where if they are not accepting them, then there are 
consequences, and most countries will probably rather accept 
them than accept the consequences, and so we need to make sure 
that that is----
    Mr. Salmon. It needs to be a joint hearing, as you said, 
and we are pursing it. In fact, you and I talked----
    Mr. Duncan. Will the gentleman yield?
    Mr. Salmon. Yes, I would.
    Mr. Duncan. I am chairman of the Oversight Subcommittee on 
the Homeland Security Committee, and we are looking into the 
issue of the released prisoners and the subject you talked 
about in Maricopa County.
    So I don't think you limit it to this subcommittee and 
Judiciary. I think you involve the Homeland Security Committee, 
and Secretary Jacobson was talking about, DHS and State working 
well together, well if they work so well together, why is DHS 
not sitting at the table today?
    Mr. Salmon. All right. I am going to go ahead, and if it is 
all right, go through one more round of questions.
    And my first question is regarding a report that was 
released today by the Seattle International Foundation. It 
shows that from 2010 to 2012--this is for you, Ms. Hogan, U.S. 
foundations invested $488 million in Central America.
    So moving forward, how will the Obama administration work 
with private donors to leverage these resources to ensure that 
the Federal Government's dollars are maximized? Also, are you 
currently coordinating any public/private partnership in El 
Salvador, Guatemala or Honduras focused on vocational programs 
and workforce competitiveness, and if so, can you tell us how 
they work and how they contribute to economic prosperity in the 
communities where they are administered?
    Ms. Hogan. Thank you very much for that question. I will 
start with the work that we are doing with the private sector 
on workforce development that we do in Central America as well 
as Mexico and the Caribbean, and we have seen some really great 
successes as a result of that combination of resources that the 
private sector brings to bear along with the training that we 
can provide.
    And what the private sector is looking for are people that 
have the kind of skills that can go into the jobs that they 
have openings for. And so with work/life skills, with computer 
skills, with market-oriented training, what we have been able 
to see is these companies picking up these youths to go and 
work for them.
    In fact, in one of our programs, we have seen 77 percent of 
the youth that come out of our workforce training programs 
either go to work or go back to school for increased education.
    The other thing that we are seeing is that youth that come 
out of these training programs, these workforce development 
programs, are also sometimes opening up their own businesses 
based on the skills that they develop as a result of this 
training. So we are very excited about it. It keeps kids in the 
communities, the companies get the kind of skill mix that they 
need, and it has really been a very successful flourishing 
partnership with some of the key companies of the region.
    As far as how we work with private foundations, one of the 
things that we are doing in Central America is designing what 
we call a safe cities approach to be sure that we can bring all 
the resources to bear in a particular place-based strategy so 
that we draw upon the resources, not just of the U.S. 
Government, but as we already are doing with the private 
sector, but also with international--other donors, for example, 
with the international development banks that might be 
investing in this, as well as private foundations, and so what 
we are doing is scoping out who has interest in this community, 
who has something to bring to the table for support, and how 
can we maximize our impact by bringing all of that together 
under one strategy, one set of metrics, for one set of results.
    Ms. Jacobson. Mr. Chairman----
    Mr. Salmon. Yes. Thank you.
    Ms. Jacobson [continuing]. Just real quickly, I am going to 
go from this hearing to speak at NASA, which is a student 
exchange convention that is here in town, and as part of the 
President's 100,000 Strong in the Americas, which is, as you 
know, not a government program, we have raised over $3 million 
of private funds to try and do these university-to-university 
partnerships.
    But the part I am proudest of are not the traditional 
partnerships. They are, frankly, the partnerships of either 
what we call vocational training schools or community colleges, 
which don't necessarily exist in some of the Central American 
countries to provide that gap between high school and a 4-year 
college which most of these kids will not have access to.
    And at that conference today, there will be Chilean 
students who were at Montclair State. We are doing a lot of 
work, in fact, with Arizona, both with ASU and in some of the 
community college systems. This is where I think some of our 
best private/public work can be done in the education sphere in 
places like Central America.
    Mr. Salmon. Assistant Secretary Jacobson, I not only serve 
on this committee, but I am on the Education and Workforce 
Committee also, and I have worked with Arizona State and 
Maricopa Community College system for years and years and 
years. In fact, I used to represent them as well in my private 
life.
    So I really would love to figure out a way--at least maybe 
we could do some pilot stuff in Arizona, and I would love to 
work with you and the Secretary of Education to try to come up 
with some innovative ways, because that really is--the way to 
empower people, that is the way to get them out of poverty. 
That is the way to get freedom. So I would really love to work 
with you on that.
    The Chair recognizes the ranking member, Mr. Sires.
    Mr. Sires. Yes. Years ago when we used to deport criminals, 
I think we would just send them back. Do we have a situation 
now where we send them back with a rap sheet knowing what they 
did, and is there any follow-up to see if some of these people 
reappear again here in the States?
    Ms. Jacobson. Mr. Sires, what I am going to give you is 
sort of a partial answer, because some of the rest of it I am 
going to get back to you on as well as checking with my DHS and 
Justice Department brethren.
    We have worked over the last number of years to do better 
with the countries in the region at giving them information on 
the criminal history of the people that they are going to be 
accepting with criminal deportees. They ask, I think 
legitimately, to know what kinds of crimes they have committed 
so that they can be prepared as a receiving country to know 
what kinds of--you know, if they go back into the communities, 
how did they have to prepare themselves.
    Some of that information is now much better able to be 
transferred to other governments. We have pilot programs. I 
know that both DHS and Justice have worked with countries in 
Central America and in the Caribbean to try and convey as much 
information as possible within our own laws so that they can 
give countries an idea of the history of criminal deportees.
    Beyond that, obviously those folks are put into a system so 
that in the future when they might attempt to come back into 
the country through legal means they are registered in the 
system as having criminal records in the United States, and 
that should not be possible. If they come in via undocumented 
or illegal means, obviously, that is a different story, but 
obviously that information is put into both State Department 
and DHS databases.
    Mr. Salmon. If the gentleman would yield----
    Mr. Sires. Thank you.
    Mr. Salmon. I have actually done quite a bit of research on 
this, and the ones that we are talking about were never 
adjudicated. They are arrested and arraigned for an accused 
crime, but they never get to adjudication because they are 
flagged and INS comes and gets them and either deports them or 
lets them go before they are ever even adjudicated.
    So that is one of the big missing problems. They 
certainly--if they are deported, they don't go serve in the 
prisons in those countries. They are out scot-free, and of 
course they don't come back the legal way.
    The other interesting thing is during the situation with 
the unaccompanied minors. Remember how we were told that they 
came--they didn't come to the entry points. They came to the 
middle ground. Why did they do that? Because then it took all 
kinds of agents off of the checkpoints, and meanwhile the bad 
guys would sneak through other places. They were used as 
decoys.
    So it is not about being able to get a good handle on them 
because, as I was told by Sheriff Arpaio, he has had some that 
have been in his prison ten times or more for different crimes, 
ten different crimes. So they have been arrested, flagged by 
INS, released, back in jail, arrested on another crime a few 
months later or 1 year later. It is a serious problem.
    The Chair recognizes Mr. Duncan.
    Mr. Duncan. Thank you. I just have a few follow-up 
questions or final questions, rather.
    The U.S. is contracting out refugee processing to the 
International Organization for Migration. So why aren't you 
working with the U.N. Refugee agency, UNHCR, to establish IDP 
camps if the situation is so dire in Central America that these 
children are having to escape the situations there?
    Ms. Wiesner. Sure. In fact, we are doing both. We work with 
the International Organization of Migration around the world on 
the processing of resettled refugees, and as you know, we have 
a very strong relationship with UNHCR as well.
    We recently gave UNHCR a grant of 700--around $770,000 as 
an initial contribution toward their work in Central America 
with the express purpose of building up their presence there, 
understanding the dynamics of internal displacement within 
these countries and working with the governments to increase 
protections for children at risk of harm in their own country 
so that they won't have to flee.
    Mr. Duncan. Is the U.N. setting up IDP camps in Central 
America?
    Ms. Wiesner. They are not setting up IDP camps, but they 
are working with the governments to understand right now the 
dynamics of internal displacement.
    Mr. Duncan. Right. What is the cost for the U.S. to 
contract with IOM?
    Ms. Wiesner. I don't have those figures for you right now.
    Mr. Duncan. Was it a competitive bidding process? Why was 
it awarded to them? Why was an MOU given to them?
    Ms. Jacobson. I think you may be talking--because I don't 
think we have offered any kind of contracting yet for the in-
country processing. I am not----
    Mr. Duncan. My understanding is an MOU was filled.
    Ms. Jacobson. But I am talking--the MOU that we have with 
the IOM is on the repatriated folks who go back from the United 
States, the families and the adults, and we have contracted 
with IOM to do the repatriation of those folks who came during 
the summer surge----
    Mr. Duncan. In their home country?
    Ms. Jacobson [continuing]. So there are two different--
there are two different contracts.
    Ms. Hogan. Let me just add to what Roberta just said.
    USAID has a $7.6 million grant to the IOM, International 
Organization for Migration, to help governments prepare to 
upgrade the reception services that they provide to repatriated 
migrants, and we have seen that the governments in turn have 
really stepped up to the plate in terms of making more space 
available, getting volunteers to help in processing people, 
making sure they get food when they get off the plane, giving 
them medical referrals, job referrals, et cetera.
    So they have been doing quite a bit and we have seen--I 
actually got to see a plane of migrants repatriated in 
Honduras, and it went very, very smoothly, and I think that IOM 
has really done a very good job and is standing by to see if 
additional services may be required.
    Ms. Wiesner. Congressman, just to clarify, so IOM does do a 
lot. They implement this program for USAID. They are the 
existing contractor for us for the existing resettlement 
support center in Quito, Ecuador, and it is that center that we 
are going to be expanding to accommodate this new program in 
Central America, and when that contract contribution was 
awarded to IOM several years ago, it was a competitive process 
posted online for the existing resettlement support center in 
Quito.
    Mr. Duncan. Right. Okay.
    Vice President Biden talked about providing $9.6 million to 
Central America, and in July the administration requested an 
additional $300 million. A lot of money promised. The President 
promised some money this week over in China. Where is this 
money coming from? Does it come out of your budget at the State 
Department?
    Ms. Jacobson. Well, as you know, the $300 million that the 
President was talking about was in the supplemental that was 
sent to Congress this summer, and the 9.6 that the Vice 
President talked about when he was--I think it was probably 
when he was in Guatemala earlier in June, was funds that we 
reallocated from within the State Department's budget that we 
thought was much more urgently needed, quite honestly, in 
Central America for things like repatriation and resettlement 
of migrants----
    Mr. Duncan. I mean, the reason I ask that question, I get 
this question at home a lot, because every time we turn around, 
the Vice President or someone in the administration is 
promising $100 million here, $1 billion here, and your budget's 
finite. You know, it is set by Congress. So are you all 
shrinking your budget? Are you reallocating resources? What 
programs are being changed here?
    Ms. Jacobson. Certainly some of the funds are coming from 
reallocation. There was a Congressional notification that went 
forward just a few days ago for about $76 million in funds for 
INL, the International Narcotics and Law Enforcement, funds to 
be reallocated toward Central America. Those, I believe, were 
originally funds from a number of years ago destined for Iraq 
that could no longer be used. Those are being reallocated for 
Central America.
    Some funds have been from elsewhere. The $300 million, as 
you know, was the supplemental request. That was not taken from 
elsewhere, but even so, as you know, the $300 million in the 
supplemental request was out of a $3.7 billion overall request. 
So the foreign assistance portion of it was really quite small.
    We continue to believe that although foreign assistance 
budgets are extremely constrained, we are well aware it is, in 
fact, more efficient if we use those funds in the countries to 
try and address those root causes than if we try and deal with 
the effects of it right here on our territory and our----
    Mr. Duncan. And I am not arguing today about the 
appropriate use or inappropriate use of the money, but I guess 
I am concerned as a Member of Congress and accountable to the 
taxpayers that I would love to see a breakdown of the State 
Department's budget and all the promises made and where that 
money is coming from. How you are reallocating that money.
    Mr. Chairman, that might be a request that the Foreign 
Affairs Committee as a whole makes to the State Department 
because there are a lot of promises made by the administration 
that we have got to find enough money through a CR or an 
appropriations bill to fund or they have got to reallocate. I 
would love to see that.
    The last thing that I wanted to ask, Mr. Chairman, really 
probably is for DHS, and they are not here, but I just wonder, 
how many new DHS personnel will be required at U.S. Embassies 
in the Northern Triangle countries to implement this program? 
Do you all know?
    Ms. Jacobson. Do you mean the in-country refugee processing 
program?
    Mr. Duncan. Right.
    Ms. Jacobson. I don't know that we have a specific number 
yet of individuals, although I think in general this will be 
carried out by others in terms of the--in the countries, the 
three countries, but frankly, as we implement all of these 
efforts to reduce migration, I don't think there is any doubt 
that we may need some additional people in our Embassies in all 
three countries. Let me ask----
    Mr. Duncan. I mean, my understanding, Madam Assistant 
Secretary, is that DHS has refugee interview locations in six 
Latin American countries but not in the Northern Triangle 
countries.
    Ms. Jacobson. I think that is correct.
    Mr. Duncan. Are they planning to shift personnel or add? 
And I guess that is my--the gist of it.
    Ms. Wiesner. They do circuit rides in many parts of the 
world. There are some refugee adjudicators based at Embassies, 
but most of the refugee interviews that are done around the 
world are people who come in for a circuit ride of 6 weeks and 
conduct a number of interviews. So that is the model that we 
will be using to start in Central America. So there will be no 
additional burden on the Embassies.
    Mr. Duncan. Okay. That is a good thing.
    Mr. Chairman, I had an experience with an Afghan 
interpreter, translator, served with 3rd Infantry, and it took 
2 years to get someone that the Army vouched for, several 
generals, I don't know if Petraeus did, but Allen did, a number 
of others to get this gentleman into this country. Vouched for 
by the military, fought alongside our military in Afghanistan, 
threatened by the Taliban, lost his uncle during the process.
    Took 2 years. Had his visa issued to come to this country 
and then State pulled it away from him. He was chased from the 
Embassy home and evaded Taliban numerous times. I throw that 
out there in that I would hope the process is at least as 
taxing for refugee children coming from Central America as it 
was from somebody coming from Afghanistan, and I say that in 
that it shouldn't be taxing. It shouldn't be as taxing for 
people in Afghanistan that serve our Nation.
    Mr. Salmon. Well, and it begs a bigger question. I 
understand that the numbers, even though there is a 4,000 
number, that can be exceeded if they come from another area. 
Right? Is that correct? What I mean is, the total number for 
the world is, what, 70,000?
    Ms. Wiesner. 70,000.
    Mr. Salmon. Yeah. And so if you decide to reallocate that 
or have 10,000 come from Central America, you just have to 
shrink it somewhere else so it stays under the total global 
amount. Right?
    Ms. Wiesner. There would have to be a reallocation if the 
number went above 4,000. There is some flexibility built into 
the system. We also, as Assistant Secretary Jacobson noted, 
won't be accepting applications before December. So, you know, 
the Fiscal Year 2015 comes to end pretty soon thereafter.
    Mr. Salmon. Because a concern would be that there are very 
calamitous situations in other parts of the world, Sudan, as 
you mentioned, Afghanistan, and it would be tragic--I mean, I 
hope it is at least based on the most serious people globally 
and it is an equal standard.
    I would hope that if somebody gets over here because they 
are uncomfortable where they are living and somebody else has 
the threat of death for their religious belief in another part 
of the world, I would hope the greater consideration would be 
given to the latter.
    Ms. Wiesner. And there is prioritization given to cases 
that are at the greatest risk of harm. So there are expedited 
processes for those cases.
    Mr. Salmon. And does the gentleman Sean Duffy have any 
questions? We have last round if you would like.
    Mr. Duffy. Thank you, Mr. Chairman.
    And I appreciate you holding this hearing to shed light on 
what is going on.
    Ms. Wiesner, do you have this document in front of you with 
a list of categories?
    Yes?
    Would you do me a favor? Would you maybe walk me through 
one by one and just tell us what these are and what was the 
rationale for putting them on the list. So if you could start 
with the Lawful Permanent Resident. Who is a Lawful Permanent 
Resident and why did they make it onto the category list?
    Ms. Wiesner. So I am afraid this is going to be another 
instance where we are going to disappointed that the Department 
of Homeland Security is not here because these are all----
    Mr. Duffy. I am sure you won't disappoint.
    Ms. Wiesner [continuing]. Statuses. No, we are definitely. 
We would like to be able to present this jointly with them. It 
is a joint program.
    So these categories were developed jointly with the 
Department of Homeland Security. These are all considered to be 
lawfully present statuses by the Department of Homeland 
Security, and in designing a program----
    Mr. Duffy. So it is--I don't have a whole lot of time, but 
if you would just walk me through each one, and if you know the 
rationale, who are these individuals and what was the 
rationale, if you know, how they got on the list.
    Ms. Wiesner. I can walk you through the categories. Lawful 
Permanent Resident is relatively self-explanatory, I think.
    Temporary Protected Status applies to nationals of El 
Salvador and Honduras. Those are two of many countries that 
benefit from Temporary Protected Status. They were awarded at 
different times in the past due to natural disasters and 
events.
    Mr. Duffy. And are the first two, both of them, those two 
statuses would be here legally. Correct?
    Ms. Wiesner. Everybody on this list is considered to be 
lawfully present.
    Mr. Duffy. Okay. Parolee granted for at least 1 year, what 
is that?
    Ms. Wiesner. So parole is a discretionary authority given 
to the Secretary of Homeland Security to admit people to the 
United States based on an urgent humanitarian need or in the 
public interest.
    Mr. Duffy. So someone who was brought here but it is not a 
status that is given someone who was already in the United 
States. Is that correct?
    Ms. Wiesner. Correct.
    Mr. Duffy. Okay. Deferred Action for Childhood Arrival 
(DACA).
    Ms. Wiesner. I can't say much more about that than I think 
what everybody knows.
    Mr. Duffy. So a quick question on DACA. This was executive 
action from the President. Right? Is that correct?
    Ms. Wiesner. Uh-huh.
    Mr. Duffy. And if you are a child who has taken advantage 
of DACA, do you really have legal status or is it just a 
deferred removal program? You don't have legal status if you 
are a child in the DACA program; are you?
    Ms. Wiesner. I believe that DHS would make a distinction 
between a legal status and lawfully present, and would say that 
under the DACA program people are lawfully present.
    Mr. Duffy. For how long?
    Ms. Wiesner. For the period granted.
    Mr. Duffy. How long is the DACA program in action?
    Ms. Wiesner. I can't answer that question.
    Mr. Duffy. So this is not a long-term permanent status. It 
is an executive action made by the President----
    Mr. Salmon. Would the gentleman yield?
    It is only guaranteed through the President's term.
    Mr. Duffy. Thank you, Mr. Chairman.
    Would you agree with that, Ms. Wiesner?
    Ms. Wiesner. I mean, that is the definition of an executive 
action.
    Mr. Duffy. Right. So if you are someone who is here in the 
United States and not going to be removed because of executive 
action, that is good for another 2 years, and they have made 
this list so they can basically engage in chain migration, 
bringing family members up from Central America. Is that 
correct?
    Ms. Wiesner. I think what you are getting at----
    Mr. Duffy. Is that correct?
    Ms. Wiesner [continuing]. Is the status that the children 
will have when they get here, and it is true that if you have 
refugee status, you have a path to legal citizenship.
    It is also true that if you arrive at our border and apply 
for asylum and are eligible for it, then you have a legal path 
to citizenship.
    Mr. Duffy. But that is different----
    Ms. Wiesner. So this is offering the same opportunity to 
the same children but before they take the dangerous journey.
    For those who would be admitted under parole, they would be 
admitted under a temporary status as well.
    Mr. Duffy. But being a Lawful Permanent Resident is 
something far different than someone who has a status for the 
remaining 2 years, or while the President is the President. 
Correct?
    And they are able to take advantage of this program though 
their legal--the legality of their status will only remain for 
another 2 years. Is that fair to say?
    Ms. Wiesner. I think it is fair to say that these are all 
different categories, and some of them are permanent, some of 
them are temporary, and they are all considered lawfully 
present.
    Mr. Duffy. Maybe you are right that I will be disappointed 
in this hearing. If you are telling me that they are all 
different categories, you have stated the obvious. That is why 
I am asking you about them.
    Let's go to withholding of removal guarantee. What is that? 
The last one.
    Ms. Wiesner. I don't have----
    Mr. Duffy. Grantee--removal of--withholding the removal 
grantee. You don't know what that is?
    Ms. Wiesner. It means there is a removal order there with--
there is a withholding of a removal order.
    Mr. Duffy. So there is an order to remove them, but that 
has been stayed. Is that your understanding?
    Ms. Wiesner. I am going to have to refer you to DHS for the 
details on the category.
    Mr. Duffy. And they can take advantage of this program. 
Correct?
    Ms. Wiesner. Everybody on this list is eligible to apply 
for the programs.
    Mr. Duffy. So there was an order to remove, it has been 
withheld, and you can take advantage of the program.
    If there are children who are found ineligible for refugee 
status, they could still be admitted if they are at risk of 
harm. What is the definition of ``still at risk of harm?''
    Ms. Wiesner. Well, I think as the chairman and others 
outlined in their openings statements, we have all seen the 
incredible insecurities facing the region as well as the 
individual--the violence faced by individual children on a 
daily basis. So----
    Mr. Duffy. Is there a standard for that?
    Ms. Wiesner. The definition of significant harm is a 
discretionary authority granted to the Department of Homeland 
Security.
    Mr. Duffy. So it is discretionary.
    Ms. Wiesner. Correct.
    Mr. Duffy. Okay. And we now have the current number that we 
can allow from the region is 4,000, but you have indicated that 
that number could go up. Is that correct?
    Ms. Wiesner. The allocation for Latin America and the 
Caribbean region right now for refugees is 4,000.
    Mr. Duffy. And it can go up to how many?
    Ms. Jacobson. Well, I mean, I think what Ms. Wiesner 
indicated was that the global total is 70,000. When we sent the 
refugee numbers forward for this year knowing that this program 
was going to start, we did not adjust that number. We did not 
think we would really need more than the 4,000, but it is only 
elastic up to the 70,000, but no one believes that it will be 
expanded, obviously, to 70,000.
    Mr. Duffy. Of the 70,000 number, how much of that has been 
utilized?
    Ms. Jacobson. Globally?
    Mr. Duffy. I mean, if you have used up to 20,000 so far, 
you might have--you could take that 4,000 up to----
    Ms. Jacobson. Are you talking about with this program? This 
program hasn't begun yet.
    Mr. Duffy. No, no. I know, but you said there is a total of 
70,000 that----
    Ms. Jacobson. Right. Globally----
    Ms. Wiesner. In the fiscal year. So about 6,000 refugees 
have arrived so far this fiscal year from around the world.
    Mr. Duffy. Okay. So if the same was in the next fiscal 
year, in theory, you could move this from 4,000 up to 64,000, 
in theory. Not saying that you are, but you have a total of up 
to 70 that you could use, and if you have used six this year, 
you can do the same next year, the total number could be much 
higher than 4,000? Am I losing you?
    Ms. Wiesner. A little, because the 6,000 of the 70,000 have 
arrived this year.
    Mr. Duffy. Right. And does----
    Ms. Wiesner. Next year the allocation will probably be 
informed by the number who have arrived this year from the 
region, but it was set at 4,000 with an understanding that that 
would cover the expected number this fiscal year.
    Mr. Duffy. Okay. Maybe we are speaking past each other.
    I guess would you categorize this as a program for chain 
migration?
    Ms. Wiesner. I am sorry. Could you repeat the question.
    Mr. Duffy. Would you categorize this as a program for chain 
migration? No?
    Ms. Wiesner. I would not. No.
    Mr. Duffy. Okay. And I am going to yield back in just one 
moment.
    I would tell you I think there is a desire within this 
institution to figure out how we get immigration reform done, 
and I think there is a willingness on both sides of the aisle, 
and I think there is an opportunity to get it done without 
going through programs like this where we have a withholding of 
a removal guarantee that I don't think this is the process in 
which we should use.
    My hope is that the President will hold off and allow this 
institution with the Senate to actually work and go through 
proper channels to actually have an immigration system that is 
understandable, knowable, and going to work from one President 
to the next, because we will have a new system of laws in place 
and as opposed to Presidential executive actions which I don't 
think gives certainty to those who have come here without 
documentation.
    And I think it actually exposes them to greater risk, 
especially if executive amnesty, which I know we are not 
talking about, but is overturned by the next President or is 
overturned by the courts that could expose folks who are here 
without documentation, I think, to pretty significant harm.
    With that, Mr. Chairman, I yield back.
    Mr. Salmon. We need permanent solutions that will stand the 
test of time, not just a solution during one administration or 
two administrations, and as the gentleman I think just 
illustrated, the laws are so very subjective and it leaves so 
much discretion to the person making the decision.
    My fear is that even though I know it is supposed to be 
priority based, my fear is that, given the fact that in 
government so often the right hand doesn't know what the 
lefthand is doing and there is not a lot of communication, is 
that some incredibly needy recipient would be ignored because--
and somebody else who is not nearly as needy gets granted 
asylum status or refugee status, and that is why we held the 
hearing more than anything, is that we really do believe that 
we need to have clarity going forward, and that we want to 
solve the problem with Central America.
    The answer is not some mass exodus out of Central America, 
but the answer is to solve the problems, the economic problems, 
the security problems, and we just--we want to take that on 
together, and we need your advice and we need your help to 
figure out what works, what doesn't, where can we put more 
resources, how can we leverage existing resources better, and 
how can we do a better job.
    I really appreciate you being here today. I know that at 
times it has felt frustrating, the line of questioning. It is 
not meant to be pejorative or as painful as it has been. It has 
just been that way because I think there is such a lack of 
clarity, and we just want to make sure that going forward that 
we all comply with existing law. We can't comply with a law 
that doesn't exist yet, and for that, again, I would ask Ms. 
Wiesner if you could give us the citation. I know you are going 
to go back and look at that of what specific law this new 
program falls under so that we can understand going forward.
    And for the American people that are having an opportunity 
to watch this hearing, you understand now, as Mark Twain said, 
there is two things you don't want to see being made, sausages 
and laws. It is a very messy process, and it is very 
frustrating, but we will get to the bottom of it. We will 
figure out the solutions, and I greatly appreciate your being 
here today.
    Thank you very much and this hearing is now adjourned.
    [Whereupon, at 3:33 p.m., the subcommittee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record<greek-l>Notice deg.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

               <F-dash>\\<careof><Rx><brit-pound>t<box>s\
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
